   THE DRUG ENFORCEMENT
     ADMINISTRATION’S
   IMPLEMENTATION OF THE
GOVERNMENT PERFORMANCE AND
        RESULTS ACT

      U.S. DEPARTMENT OF JUSTICE
    OFFICE OF THE INSPECTOR GENERAL
             AUDIT DIVISION

          AUDIT REPORT 03-35
           September 2003
        THE DRUG ENFORCEMENT ADMINISTRATION’S
    IMPLEMENTATION OF THE GOVERNMENT PERFORMANCE
                   AND RESULTS ACT

                                EXECUTIVE SUMMARY

       The Government Performance and Results Act of 1993 (GPRA) seeks
to shift government performance and accountability away from a
preoccupation with counting activities to focus instead on the results or
outcomes of those activities. GPRA provides a performance-based
management framework for agencies to set goals, measure progress
towards those goals, deploy strategies and resources to achieve the goals,
and use performance data to make decisions to improve performance.

       Our audit focused on evaluating the Drug Enforcement
Administration’s (DEA’s) implementation of GPRA. We examined whether
the DEA had: 1) developed an adequate strategic goal and objectives that
were consistent with the Department’s strategic goals and objectives;
2) established performance indicators for all decision units included in the
DEA’s budget requests;1 and 3) established an effective system of controls
to collect, analyze, and report data related to its performance indicators. We
performed our audit work at the DEA Headquarters and its field divisions in
Atlanta, Chicago, Los Angeles, New Orleans, and New York.

       Our audit determined that the DEA had failed to meet key aspects of
GPRA as we identified deficiencies in each of the three areas reviewed. We
found that the DEA had developed a strategic goal and objectives that were
consistent with the Department’s strategic goals and objectives, but the
DEA’s strategic goal and objectives were not definitive enough to allow for
an assessment of whether the goal and objectives were being achieved. In
addition, even though the DEA had established performance indicators for all
of its budget decision units, it had not established:

         •   specific criteria for its field divisions to designate organizations as
             “priority target” organizations, which is a key element of its
             strategic goal;

         •   specific criteria for its field divisions to report on the primary
             performance indicator – priority target organizations disrupted or
             dismantled;



1
    A decision unit is a specific activity or project identified in an agency’s annual budget.
      •   an effective system to collect, analyze, and report performance
          data for all of its performance indicators;

      •   procedures to verify the performance data for all of its performance
          indicators;

      •   accurate performance data for one of the five field divisions
          included in our review; and

      •   reasonable performance goals for its performance indicators.

A brief overview of each of these deficiencies follows.

      Adequacy of Strategic Goal and Objectives: The DEA established
a strategic goal to “Identify, target, investigate, disrupt, and dismantle the
international, national, state, and local drug trafficking organizations that are
having the most significant impact on America.” The DEA also established
15 strategic objectives for achieving this strategic goal. However, neither
the strategic goal nor the 15 strategic objectives were quantitative, directly
measurable, or assessment-based as required by Office of Management and
Budget (OMB) Circular A-11. As such, it is impossible to assess whether the
DEA is achieving its goal and objectives.

       After we issued the draft report, the DEA informed us that it has
revised its strategic plan since we completed our audit fieldwork. The DEA
updates its 6-year strategic plan annually. At the time of our audit
fieldwork, the DEA had completed its FY 2001-2006 Strategic Plan. We
found that the goal and objectives in the DEA’s FY 2001-2006 Strategic Plan
were not quantitative, directly measurable, or assessment based.
Subsequent to the exit conference for the audit, the DEA informed us that it
was then drafting its FY 2003-2008 Strategic Plan to address these
shortcomings. In response to a draft of this audit report, the DEA stated
that it has drafted its FY 2003-2008 Strategic Plan to include a general long-
term goal and four strategic goals with 2-year and 5-year quantitative, time-
specific objectives, which it believes will address some of the
recommendations in this report. The DEA also stated that these new goals
and objectives meet the requirements of GPRA and OMB Circular A-11. The
DEA stated that the revised Strategic Plan would be provided to the Office of
the Inspector General upon approval of the plan.

      We believe the DEA’s actions to revise its goal and objectives in the
FY 2003-2008 Strategic Plan, partly in response to this audit, are positive
steps towards improving the DEA’s ability to measure achievement of its
goals and objectives. Once we receive the DEA’s FY 2003-2008 Strategic


                                     - iii -
Plan, we will evaluate the adequacy of the DEA’s revised goals and
objectives and provide feedback to the DEA.

       Criteria for Designating Priority Target Organizations: The DEA
had developed a general definition of a “priority target organization,” but it
had not established specific criteria for identifying illicit organizations as
priority target organizations. As a result, the DEA’s field divisions were not
consistent in how they determined whether an organization should be
reported as a priority target.

       Criteria for Reporting Priority Target Organizations as
Disrupted or Dismantled: Similarly, the DEA also had developed a
general definition for what constitutes a “disrupted or dismantled” priority
target organization, but it had not established specific criteria for reporting
priority target organizations as disrupted or dismantled. As a result, the
DEA’s field divisions were not consistent in how they reported priority target
organizations as disrupted or dismantled.

       System to Collect, Analyze, and Report Performance Data: The
DEA had not developed a system to effectively track performance indicators
for five of its six performance indicators. As a result, we could not
determine whether meaningful performance data would be available to
effectively measure performance against these performance indicators.

       Procedures to Verify Performance Data: The DEA had developed
the Priority Target Resource and Reporting System (PTARRS) for tracking
and reporting performance data on priority target organizations. We found
that PTARRS generally was adequate to verify the domestic priority target
performance data. Specifically, we reviewed the PTARRS system controls
and cross-checking methods and determined them to be acceptable to verify
the domestic priority target performance. The acceptability of these
verification procedures is supported by the minimal reporting errors that we
identified as discussed below. However, PTARRS was not used to track
performance data for the DEA’s five other performance indicators. As a
result, the DEA is unable to verify the accuracy and reliability of the
information recorded, reported, and used to evaluate its performance for
these indicators.

     Accuracy of Performance Data Reported: In its FY 2003 budget
request, the DEA reported that it had identified 566 priority target
organizations during FY 2001.2 Subsequent to submitting the budget

2
  Because agency budget requests are prepared well in advance of the fiscal year they
fund, the budgets contain actual performance results for the period two fiscal years prior to


                                           - iv -
request, the DEA revised the number of priority targets for FY 2001 to 726.
Two hundred forty-eight of the 726 priority target organizations were for the
five DEA field divisions included in our review. Our audit determined that all
248 organizations were being investigated by the DEA as priority target
organizations and as such, were properly reported as priority target
organizations for FY 2001. In its FY 2003 budget request, the DEA also
reported that it had disrupted or dismantled 100 priority target organizations
during FY 2001. Forty-one of the 100 priority target organizations reported
were for the five DEA field divisions included in our review. Our audit
determined that the number of priority target organizations disrupted and
dismantled was not correctly reported for one of the five field divisions.
Specifically, 2 of the 28 priority target organizations reported as disrupted or
dismantled should not have been reported as such by the Los Angeles field
division. In addition, another priority target organization was reported with
the wrong case number. The DEA subsequently corrected the errors when it
entered the data into PTARRS and as noted above, the PTARRS system
controls were adequate to verify domestic priority target data. Therefore, no
action is required by the DEA on this issue.

       Performance Goals: The DEA established goals for the number of
priority target organizations that it would identify each fiscal year and for the
number of priority target organizations that it would disrupt and dismantle
each fiscal year. However, the goals were usually well below what the DEA
should expect to achieve based on past performance data.

     As a result of these deficiencies, the ability of the DEA, the
Department, Congress, and the public to assess the effectiveness of the
DEA’s performance is diminished.

      In our report, we made seven recommendations to assist the DEA in
developing and reporting reliable and accurate performance results. We
recommended that the DEA establish a strategic goal and objectives that can
be effectively measured and develop specific criteria for the field divisions to
use for identifying priority target organizations and for reporting whether the
organizations have been disrupted or dismantled. We also recommended
that the DEA take actions to develop a system to track all of its performance
results, fully report its performance results, establish procedures and
controls to verify all of its performance data, ensure performance data is
correctly reported for all field divisions, and establish better performance
goals for its performance indicators.



the budget year. Consequently, an agency’s FY 2003 budget includes actual performance
results for FY 2001.


                                        -v-
                                  TABLE OF CONTENTS
                                                                                             Page

INTRODUCTION ................................................................................. 1

   Background................................................................................... 1

   Government Performance and Results Act of 1993 ............................... 1

   The Department of Justice’s Implementation of GPRA ......................... 1

   The DEA’s Implementation of GPRA ................................................... 2

   Prior Audits ................................................................................... 3

FINDING AND RECOMMENDATIONS....................................................... 6

   THE DEA’S IMPLEMENTATION OF THE GOVERNMENT PERFORMANCE
   AND RESULTS ACT NEEDS TO BE IMPROVED ...................................... 6

   Adequacy of the DEA’s Strategic Goal and Objectives .......................... 6
   Recommendation ................................................................................9

   Development of Performance Indicators .......................................... 10
   Recommendation ..............................................................................11

   Criteria to Define a Priority Target Organization ............................... 11
   Recommendation ..............................................................................13

   Criteria to Define a Disrupted or Dismantled Priority Target
   Organization ............................................................................... 13
   Recommendation ..............................................................................14

   Systems to Collect, Track, and Report Performance Data ................... 14
   Recommendation ..............................................................................16

   Procedures to Verify Performance Data ........................................... 16
   Recommendation ..............................................................................17

   Accuracy of Performance Data ....................................................... 17
   Goals for Priority Target Organizations and for Disruptions
   and Dismantlements .................................................................... 19
   Recommendation ..............................................................................20

   Conclusion .................................................................................. 20

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS .............. 21

APPENDIX 1 – OBJECTIVES, SCOPE AND METHODOLOGY ...................... 22

APPENDIX 2 – SUMMARY OF SPECIAL AGENT-IN-CHARGE
             QUESTIONNAIRE RESULTS ........................................... 25

APPENDIX 3 – ON-BOARD FIELD DIVISION STAFF LEVELS AS A
             PERCENT OF PRIORITY TARGET ORGANIZATIONS (PTOs).. 34

APPENDIX 4 – PRIORITY TARGET CRITERIA USED BY THE
             ATLANTA FIELD DIVISION ............................................ 35

APPENDIX 5 – PRIORITY TARGET CRITERIA USED BY THE
             CHICAGO FIELD DIVISION............................................ 36

APPENDIX 6 – PRIORITY TARGET CRITERIA USED BY THE
             LOS ANGELES FIELD DIVISION ..................................... 37

APPENDIX 7 – PRIORITY TARGET CRITERIA USED BY THE
             NEW ORLEANS FIELD DIVISION .................................... 39

APPENDIX 8 – PRIORITY TARGET CRITERIA USED BY THE
             NEW YORK FIELD DIVISION.......................................... 40

APPENDIX 9 – CIRCUMSTANCES OF FISCAL YEAR 2001
             DISRUPTED/DISMANTLED PRIORITY TARGET
             ORGANIZATIONS ........................................................ 41

APPENDIX 10 – THE DRUG ENFORCEMENT ADMINISTRATION’S
              RESPONSE TO THE DRAFT AUDIT REPORT .................... 46

APPENDIX 11 – OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
              ANALYSIS AND SUMMARY OF ACTIONS NEEDED TO
              CLOSE THE REPORT................................................... 50
                                       INTRODUCTION

Background

        The Drug Enforcement Administration (DEA) is responsible for
enforcing Federal laws and regulations that relate to controlled substances.
That responsibility includes identifying and targeting organizations and
individuals involved in growing, manufacturing, or distributing controlled
substances appearing in or destined for the United States. The DEA also is
responsible for taking actions to: 1) reduce the availability of and demand
for illicit controlled substances on the domestic and international markets,
and 2) control the diversion of legitimately manufactured controlled
substances from their lawful purpose into the illicit drug traffic. The DEA’s
performance in carrying out these responsibilities is essential to curb the
amount of controlled substances available in the United States. Our audit
focused on evaluating whether the DEA had: 1) developed an adequate
strategic goal and objectives that are consistent with the Department of
Justice’s (Department) strategic goals and objectives, 2) established
performance indicators for all the decision units included in the DEA’s budget
requests,3 and 3) established an effective system of controls to collect,
analyze, and report data related to its performance indicators.

Government Performance and Results Act of 1993

       Congress mandated performance-based management in Federal
agencies through a series of statutory reforms, the centerpiece of which is
the Government Performance and Results Act of 1993 (GPRA). It seeks to
improve the effectiveness, efficiency, and accountability of Federal programs
by establishing a system for agencies to set goals for program performance
and to measure results. GPRA requires agencies to develop strategic plans
that identify their long-range strategic goals and objectives, annual
performance plans that set forth corresponding annual goals and indicators
of performance, and annual performance reports that describe the actual
levels of performance achieved compared to the annual goals. The Justice
Management Division (JMD) has oversight responsibility for implementation
of GPRA within the Department.

The Department of Justice’s Implementation of GPRA

     Strategic planning is the first step in the ongoing planning and
implementation cycle for GPRA. This cycle, which is at the heart of the
Department’s efforts to implement performance-based management,

3
    A decision unit is a specific activity or project identified in an agency’s annual budget.


                                               -1-
involves setting long-term goals and objectives; translating those goals and
objectives into budgets and program plans; implementing programs and
monitoring their performance; and evaluating results. In this cycle, the
Department’s overall strategic plan provides the framework for component
and function-specific plans as well as annual performance plans, budgets,
and reports. At the heart of performance-based management is the idea
that focusing on mission, agreeing on goals, and reporting results are keys
to improved performance. Performance-based management was on the
Office of the Inspector General’s (OIG) list of Top Management Challenges in
the Department of Justice (2002). This list of top challenges was originally
prepared in response to congressional requests and is now required by the
Reports Consolidation Act of 2000 to be included in the Department’s annual
Performance and Accountability Report.

The DEA’s Implementation of GPRA

      The DEA’s Executive Policy and Strategic Planning Staff has
responsibility for implementation of GPRA within the DEA relating to
developing its strategic goal and objectives. The DEA’s Office of Resource
Management has responsibility for developing performance indicators to
evaluate the DEA’s performance against the goal and objectives, and for
reporting the performance results in the DEA’s annual budget requests.

      The DEA’s strategic goal is to identify, target, investigate, disrupt, and
dismantle the international, national, state, and local drug trafficking
organizations that are having the most significant impact on America. The
DEA describes these organizations as “priority targets.” This strategic goal
underscores the DEA’s belief that most drug trafficking organizations are
part of a web linking international with national/regional and state and local
organizations. The DEA further believes that effective enforcement
operations can be developed and simultaneously directed against targeted
organizations in each sector, thereby disrupting the networks that link them.

      For each of the four strategic areas identified in the DEA’s strategic
plan, the DEA developed performance indicators for each of the its four
decision units as follows:




                                     -2-
          Decision Unit                         Performance Indicators
     Domestic Enforcement         Number of priority target organizations
                                  disrupted/dismantled

                                  Contribution to reduction in drug use and availability
     International Enforcement    Number of priority target organizations
                                  disrupted/dismantled

                                Contribution to reduction in drug use and availability
     Diversion Control          Number of suppliers disrupted/dismantled
     State and Local Assistance Contribution to reduction in drug use and availability
    Source: DEA’s FY 2004 Congressional Budget Request

       From April 2001 to April 2002, the DEA tracked its progress in
disrupting and dismantling priority target organizations using a labor
intensive and time consuming manual system. In April 2002, the DEA
implemented a computer application known as the Priority Target Resource
and Reporting System (PTARRS). PTARRS automates the process of
nominating, reviewing, and approving organizations as priority targets and
provides the domestic field divisions and domestic Headquarters Operations
the capability to track the progress made and resources expended against
priority target organizations. The DEA is in the process of upgrading
PTARRS to enhance the usefulness and flexibility of the system. The
contract for upgrading PTARRS was awarded in September 2002, and the
DEA is currently working with the contractor to develop a timeline for
implementing the upgrade.

Prior Audits

      The General Accounting Office (GAO) has issued numerous reports
related to the Department’s implementation of the GPRA from 1999 to 2003.
The OIG also issued a report in 2000 that related to the Department’s
implementation of the GPRA. The following GAO reports and OIG report
address issues specifically related to the DEA.

        In a 1999 report, the GAO reported on the DEA’s drug control
strategies and operations.4 The GAO reported that the DEA had enhanced or
changed important aspects of its operations (such as strategies, programs,
initiatives, and approaches) and concluded that the DEA’s strategic goal and
objectives, and its enhanced programs and initiatives, had been consistent
with the Federal government’s National Drug Control Strategy. However,

4
  Drug Control, DEA’s Strategies and Operations in the 1990s (GAO/GGD-99-108, July
1999)


                                             -3-
the GAO found that the DEA had not developed measurable performance
targets for its programs and initiatives that were consistent with those
adopted for the National Drug Control Strategy. As a result, it was difficult
for the DEA, the Department, Congress, and the public to assess how
effective the DEA had been in achieving its strategic goal and the effect its
programs and initiative have had in reducing the illegal drug supply.

      In a 2000 report, the OIG reported on the Department’s FY 2000
Summary Performance Plan and concluded that the plan generally met the
requirements of the GPRA and Office of Management and Budget (OMB)
guidance.5 However, the OIG reported that the DEA had either not
established any numeric targets or the numeric targets were not realistic.
The DEA also had not included several of the Department’s performance
goals in its performance plan.

      In a 2000 report, the GAO made observations on the Department’s
FY 1999 Performance Report and the FY 2001 Performance Plan and
concluded that the Department’s progress in achieving desirable program
outcomes could not be readily determined since the Department had not
developed performance goals and indicators that objectively captured and
described performance results.6 The GAO found that the Department’s
performance indicators: 1) were more output than outcome oriented,
2) did not capture all aspects of performance, and/or 3) had no stated
performance targets. With respect to the DEA, the GAO found that its
FY 1999 domestic drug-related performance goals were not directly
measurable. Moreover, the indicators used by the DEA, while quantifiable,
were more output than outcome oriented.

      In a 2001 report, the GAO evaluated the Department’s FY 2000
Performance Report and its progress towards achieving key outcomes and
concluded that it was difficult to determine the Department’s overall
progress towards achieving selected key outcomes. The GAO stated that
generally the Performance Report lacked: 1) fiscal year 2000 performance
targets to measure success, and 2) a clear linkage between performance
indicators and outcomes.7 With respect to the DEA and its availability
and/or use of illegal drugs performance measure, the GAO reported that it

5
  Department of Justice FY 2000 Summary Performance Plan under GPRA (00-11, March
2000)
6
   Observations on the Department of Justice’s Fiscal Year 1999 Performance Report and
Fiscal Year 2001 Performance Plan (GAO/GGD-00-155R, June 2000)
7
 Department of Justice, Status of Achieving Key Outcomes and Addressing Major
Management Challenges (GAO-01-729, June 2001)


                                          -4-
was difficult to determine the DEA’s progress because the Department did
not have fiscal year performance targets for two of its five indicators, and
the relationship of one measure to the outcome was not clear.

       In a 2003 report, the GAO reported on the five major performance and
accountability challenges and program risks facing the Department as it
carries out its mission.8 One of the five major performance and
accountability challenges discussed in this report is the Department’s
development of measurable performance targets to help the DEA determine
its progress in reducing the availability of illegal drugs. With respect to this
issue, the GAO reported that the DEA had: 1) developed management plans
to help measure program effectiveness and provided organizational
accountability for priority performance targets; 2) established performance
targets for disrupting and dismantling international and domestic drug
trafficking organizations; and 3) developed a system to capture, verify, and
validate data on all priority projects.




8
  Major Management Challenges and Program Risks in the Department of Justice (GAO-03-
105, January 2003)


                                        -5-
                   FINDING AND RECOMMENDATIONS

     THE DEA’S IMPLEMENTATION OF THE GOVERNMENT
     PERFORMANCE AND RESULTS ACT NEEDS TO BE IMPROVED

     Our audit determined that the DEA had developed a strategic goal and
     objectives that were consistent with the Department’s strategic plan,
     but the DEA’s goal and objectives were not adequate to allow for a
     future assessment of whether they were being achieved. While the
     DEA had developed performance indicators for all of its budget
     decision units, the DEA had not: 1) reported performance results for
     all its performance indicators, 2) established specific criteria for the
     field divisions to identify priority target organizations; 3) established
     specific criteria for the field divisions to identify and report on
     disrupted or dismantled priority target organizations; 4) developed an
     effective system to collect, analyze, and report performance data for
     all of its performance indicators; 5) established procedures and
     controls to verify the performance data for all of its performance
     indicators; 6) reported the correct number of priority target
     organizations disrupted and dismantled for one of the five field
     divisions included in our review; and 7) established reasonable
     performance goals for its performance indicators. Until these
     weaknesses are corrected, it will be difficult for the DEA, the
     Department, Congress, and the public to assess how effective the DEA
     has been in achieving its intended results.

Adequacy of the DEA’s Strategic Goal and Objectives

       To determine if the DEA had established a goal and objectives that
were consistent with the Department’s goals and objectives, we compared
the DEA’s FY 2001-2006 Strategic Plan to the Department’s FY 2001-2006
Strategic Plan. The DEA established a strategic goal to “Identify, target,
investigate, disrupt, and dismantle the international, national, state, and
local drug trafficking organizations that are having the most significant
impact on America.” Our audit determined that this goal was broadly
encompassed within the Department's second goal of “Enforcement of
Federal Criminal Laws.” The DEA had also established the following 15
strategic objectives for accomplishing its strategic goal:

     Objective 1    Identify and prioritize the most significant international
                    drug trafficking organizations
     Objective 2    Disrupt the networks, the operations, and the resource
                    bases of targeted international drug trafficking
                    organizations




                                        -6-
     Objective 3    Dismantle those domestic organizations that are directly
                    affiliated with international cartels
     Objective 4    Identify and target the national/regional organizations
                    most responsible for the domestic distribution and
                    manufacture of drugs
     Objective 5    Systematically dismantle the targeted organizations by
                    arresting/convicting the leaders and facilitators, seizing and
                    forfeiting their assets, destroying their command and
                    control networks
     Objective 6    Reduce drug-related violent crime caused by drug
                    traffickers
     Objective 7    Improve the capabilities of state and local enforcement
                    efforts with specialized training programs
     Objective 8    Educate local audiences with aggressive demand reduction
                    programs
     Objective 9    Assist local efforts to control the production of cannabis
                    and methamphetamine
     Objective 10   Achieve excellence in management practices by integrating
                    planning, reporting, legal review, and decision-making
                    processes, including those for human resources, budget,
                    financial management, information management,
                    procurement, facilities, and program performance
     Objective 11   Strengthen oversight and integrity programs, ensure
                    consistent accountability and emphasize our core mission
                    responsibilities
     Objective 12   Provide training and career development opportunities
     Objective 13   Promote a diverse workforce at all levels
     Objective 14   Develop and implement an information technology
                    architecture that provides common, standards-based
                    infrastructures; ensures interconnectivity and
                    interoperability; and provides adequate safeguards against
                    unwarranted, inappropriate, and unauthorized access or
                    use of the system
     Objective 15   Certify and accredit information systems in accordance
                    with federal requirements and Department of Justice policy
                    to achieve adequate operational security and protect
                    sensitive data

      Our audit determined that the first nine objectives were consistent
with the Department's objective to “Reduce the threat, trafficking, and
related violence of illegal drugs by identifying, disrupting, and dismantling
drug trafficking organizations.” Furthermore, the remaining six objectives
were broadly encompassed under the objectives for the Department’s eighth
goal to “Ensure professionalism, excellence, accountability, and integrity in
the management and conduct of Department of Justice activities and
programs.”

      In addition, the DEA had also taken steps to address the Department's
re-positioning of protecting America against terrorism as its number one
goal. The DEA proposed changes for its FY 2002-2007 Strategic Plan to


                                        -7-
incorporate language that addressed terrorism and how it fits into the DEA's
overall plan. According to a DEA official, terrorism is an element of drug
trafficking and the DEA's primary goal of focusing on drug trafficking
organizations will remain the same. As such, the DEA incorporated language
in its strategic plan to address the link between drug trafficking and
terrorism, as well as how the DEA can continue its current plan while also
meeting the Department's emphasis on protecting America against
terrorism.9

      We also evaluated the DEA’s strategic goal and objectives to
determine if they were adequate to allow for a future assessment of whether
the goal and objectives were being achieved. OMB Circular A-11 requires
that strategic goals and objectives be either quantitative, directly
measurable, or assessment-based to allow for future assessment of
achievement. OMB Circular A-11 provides the following illustrative examples
of adequate goal and objective definitions:

    Quantitative            Seventy percent of American households will own their
                            own home in 2010.
    Directly measurable     Complete the sequencing of the horse genome by
                            June 2005.
    Assessment-based        Educational attainment at grade nine of children who
                            participated in the Sure Learn program will be at least
                            equal to the attainment level of all similarly aged children.

       Our audit determined that the DEA’s strategic goal was not
quantitative, directly measurable, or assessment-based. The DEA’s strategic
goal is to identify, target, investigate, disrupt, and dismantle the
international, national, state, and local drug trafficking organizations that are
having the most significant impact on America. This goal does not provide
any quantitative measures such as a percentage of drug trafficking
organizations that the DEA plans to identify, target, investigate, disrupt, and
dismantle. In addition, the goal is open-ended in that it does not provide a
timeframe in which the DEA plans to meet this goal. An example of a
strategic goal for the DEA that would meet the requirements of GPRA and
OMB Circular A-11 might be to target, investigate, disrupt, and dismantle a
certain percent of the most significant international, national, state, and
local drug trafficking organizations by a certain year.

     We also found that the DEA’s strategic objectives were not
quantitative, directly measurable, or assessment-based. For example, the
DEA’s strategic objective number 3 is to dismantle those domestic
9
 At the exit conference, the DEA informed us that it was unable to incorporate language to
address terrorism in the final FY 2002-2007 Strategic Plan but stated it is drafting the
FY 2003-2008 Strategic Plan and will incorporate terrorism language into this plan.


                                           -8-
organizations that are directly affiliated with international cartels. Again,
this objective does not provide any quantitative measures such as a
percentage of organizations that the DEA plans to dismantle, and it does not
provide a timeframe in which the DEA plans to meet this objective. As such,
the DEA’s strategic goal and objectives were not adequate to allow for a
future assessment of whether they were being achieved, as required by
GPRA and OMB Circular A-11.

       After we issued the draft report, the DEA informed us that it has
revised its strategic plan since we completed our audit fieldwork. The DEA
updates its 6-year strategic plan annually. At the time of our audit
fieldwork, the DEA had completed its FY 2001-2006 Strategic Plan. We
found that the goal and objectives in the DEA’s FY 2001-2006 Strategic Plan
were not quantitative, directly measurable, or assessment based.
Subsequent to the exit conference for the audit, the DEA informed us that it
was then drafting its FY 2003-2008 Strategic Plan to address these
shortcomings. In response to a draft of this audit report, the DEA stated
that it has drafted its FY 2003-2008 Strategic Plan to include a general long-
term goal and four strategic goals with 2-year and 5-year quantitative, time-
specific objectives, which it believes will address some of the
recommendations in this report. The DEA also stated that these new goals
and objectives meet the requirements of GPRA and OMB Circular A-11. The
DEA stated that the revised Strategic Plan would be provided to the Office of
the Inspector General upon approval of the plan.

      We believe the DEA’s actions to revise its goal and objectives in the
FY 2003-2008 Strategic Plan, partly in response to this audit, are positive
steps towards improving the DEA’s ability to measure achievement of its
goals and objectives. Once we receive the DEA’s FY 2003-2008 Strategic
Plan, we will evaluate the adequacy of the DEA’s revised goals and
objectives and provide feedback to the DEA.

Recommendation

We recommend the DEA:

1. Establish a strategic goal and objectives that are quantitative, directly
   measurable, or assessment-based to allow for a future assessment of
   whether the goal and objectives are being achieved. The strategic goal
   and objectives should contain measurable aspects such as a percentage
   of organizations to be disrupted or dismantled and milestones for
   accomplishing the goal and objectives.




                                     -9-
Development of Performance Indicators

      In its FY 2003 budget request, the DEA had not identified performance
indicators and performance results for all its decision units.10 According to
OMB Circular A-11, the annual performance plan must include a performance
goal or indicator with quantifiable results for each decision unit included in
the budget. To determine whether the DEA had established performance
indicators and reported performance results for each of its decision units, we
reviewed the annual performance plan contained in the DEA’s FY 2003
congressional budget request and interviewed DEA officials to discuss the
sources of information reported in support of the budget. As shown in the
following table, in its FY 2003 budget request the DEA had not: 1) reported
performance indicators for 7 of the 11 decision units listed in its request, and
2) reported performance results for 2 of the 4 decision units with
performance indicators.
                          DEA FY 2003 Performance Plan Data
                                     Performance Indicators           Performance Results
            Decision Unit                Included in Plan               Included in Plan
Domestic Enforcement                           Yes                            Yes
Foreign Cooperative Investigations             No                             N/A
Drug and Chemical Diversion Control            Yes                            No
State and Local Task Forces                    Yes                            Yes
Intelligence                                   No                             N/A
Laboratory Services                            No                             N/A
Training                                       No                             N/A
Research, Engineering, and                     No                             N/A
Technical Operations
Automated Data Processing                      No                               N/A
Management and Administration                  No                               N/A
Diversion Control Fee Account                  Yes                              No
 Source: DEA’s FY 2003 Congressional Budget Request

       In its FY 2004 budget request, the DEA reduced its decision units from
11 to 4 at the direction of JMD and included performance indicators for all
4 decision units. JMD instructed the DEA to reduce the number of decision
units to provide a better linkage between its strategic plan and its budget.
As shown in the following table, the DEA reported six performance indicators
for its four decision units.




10
   Because agency budget requests are prepared well in advance of the fiscal year they
fund, the budgets contain actual performance results for the period two fiscal years prior to
the budget year. Consequently, an agency’s FY 2003 budget includes actual performance
results for FY 2001 and its FY 2004 budget contains actual performance results for FY 2002.


                                           - 10 -
                         DEA FY 2004 Performance Plan Data
       Decision Unit                        Performance Indicators
  Domestic Enforcement        Number of priority target organizations
                              disrupted/dismantled

                               Contribution to reduction in drug use and availability
  International Enforcement    Number of priority target organizations
                               disrupted/dismantled

                             Contribution to reduction in drug use and availability
  Diversion Control          Number of suppliers disrupted/dismantled
  State and Local Assistance Contribution to reduction in drug use and availability
 Source: DEA’s FY 2004 Congressional Budget Request

       Two of the performance indicators (contribution to reduction in drug
use and availability and number of suppliers disrupted/dismantled) were
newly reported in the FY 2004 budget request. Even though the latter
performance indicator was new, the DEA reported performance results in the
FY 2004 budget request for this indicator because the DEA had been
collecting such data. However, the DEA had not reported performance
results for the other new performance indicator because it had yet to
develop a methodology for how to collect this performance data.

Recommendation

We recommend the DEA:

2. Ensure that performance results are included in the budget requests for
   all performance indicators.

Criteria to Define a Priority Target Organization

       The DEA used disruption and dismantlement of priority target
organizations as the baseline for measuring its success. The DEA generally
defined priority target organizations as drug trafficking organizations for
which investigations have the potential to achieve disruption or
dismantlement at the highest level of the organization and to provide the
greatest potential impact on the reduction of illicit drugs. However, the DEA
Headquarters had not established specific criteria for determining what
constitutes a priority target organization. As a result, field divisions were
not consistent in how they determined whether an organization was a
priority target.

      To determine the criteria the DEA used to select its priority targets, we
obtained a list of the 726 FY 2001 priority target organizations identified by


                                         - 11 -
the DEA. From the list, we selected five field divisions (Atlanta, Chicago, Los
Angeles, New Orleans, and New York) to verify the priority target
performance data reported. The five field divisions accounted for 248 of the
726 priority target organizations. We interviewed the Special Agents-in-
Charge (SAC) at the five field divisions to obtain their feedback on the use of
priority targets as the DEA’s source for measuring performance, and we
interviewed DEA personnel to determine the criteria used to establish the
248 priority targets. While all five SACs rated the use of priority targets as a
good to excellent source of measuring performance, they also believed that
the field divisions were not consistently identifying and reporting priority
target performance data.11 Our audit work confirmed the inconsistencies.

       As detailed in Appendices 4 through 8, our audit determined that both
within and between each of the five field divisions the criteria used by DEA
personnel to select priority target organizations varied. For example, in the
Atlanta field division, we interviewed 18 staff [Group Supervisors, Resident
Agents-in-Charge, and Assistant Special Agents-in-Charge (ASAC)] and
determined they used a total of 19 different reasons for selecting an
organization as a priority target. We found that some individuals in the
Atlanta field division used as many as 6 of the 19 reasons for selecting a
priority target while other individuals used as few as one. In addition, we
found that the primary reason for selecting priority target organizations
varied between field divisions. For example, the Atlanta field division’s
primary reasons for selecting priority target organizations was volume of
drugs and level of impact on the community, while the Chicago field
division’s primary reasons was national/international trafficking and whether
the organization was part of an Organized Crime Drug Enforcement Task
Force operation.

       A DEA Headquarters official stated that specific criteria for identifying
priority targets had not been established because the DEA’s efforts had been
focused on establishing performance indicators first and then the DEA would
concentrate on identifying and correcting any problems associated with the
selection and reporting of priority target data. In its FY 2004 congressional
budget request, the DEA reported that it was in the process of establishing
criteria for the selection of priority target organizations. In November 2002,
the DEA formed a committee of ASACs to develop the criteria. Once the
committee develops the criteria, it will be submitted to the SAC Advisory
Board for approval. At the time we drafted this report, the DEA had not
finalized the criteria for selecting priority target organizations.



11
   See Appendix 2 for the SACs’ responses to our questions related to the use of priority
targets for measuring performance.


                                           - 12 -
Recommendation

We recommend the DEA:

3. Establish specific criteria for determining what constitutes a priority target
   organization.

Criteria to Define a Disrupted or Dismantled Priority Target
Organization

      The DEA used disrupted and dismantled priority target organizations
as the primary performance indicator to measure its success. The DEA
defines a disrupted priority target organization as an organization whose
normal effective operation is significantly impacted so that it is unable to
conduct criminal operations for a significant period of time. The disruption
must be the result of an affirmative law enforcement action, including but
not limited to the arrest, indictment, and conviction of the organizational
leadership or a substantial seizure of the organization’s assets. The DEA
defines a dismantled priority target organization as an organization that is
incapacitated and no longer capable of operating as a coordinated criminal
enterprise. The dismantlement must be the result of an affirmative law
enforcement action, including but not limited to the arrest, indictment, and
conviction of all or most of its principal leadership, the elimination of its
criminal enterprises and supporting networks, and the seizure of its assets.
To be considered dismantled the organization must also be impacted to the
extent that it is incapable of reforming. However, the DEA had not
established specific criteria beyond the general description to define what
constitutes a disrupted or dismantled priority target organization, thereby
leaving the definitions subject to interpretation by the field divisions. As a
result, our audit determined that the field divisions were not consistent in
how they determined whether a priority target organization was disrupted or
dismantled.

       To determine the criteria used to decide whether a priority target
organization should be classified as disrupted or dismantled, we identified
organizations listed as being disrupted and dismantled and interviewed DEA
personnel involved with classifying the organizations. We determined that of
the 726 FY 2001 priority targets identified by the DEA, the DEA reported 50
as being disrupted and 50 as being dismantled. We obtained a list of these
100 priority target organizations and identified 41 of the 100 as being from
the five field divisions included in our review. We then interviewed DEA
personnel at these locations to determine the criteria used to classify the
organizations as either disrupted or dismantled.



                                     - 13 -
       As detailed in Appendix 9, our audit determined that both within and
between each of the five field divisions, the criteria used by DEA personnel
to classify the priority target organizations as either disrupted or dismantled
varied. For example, in the New York field division, the fact that members
of a large organization were arrested was used to classify one priority target
organization as disrupted and another priority target organization as
dismantled. In other examples, the New Orleans field division classified an
organization as dismantled based on the fact that the leader and couriers of
an organization responsible for the distribution of cocaine were arrested
while the Los Angeles field division classified an organization as disrupted
based on the fact that the leaders and couriers of an organization
responsible for the distribution of cocaine and marijuana were arrested. To
further illustrate differences between field divisions, the New Orleans and
Los Angeles field divisions’ primary reason priority target organizations were
classified as dismantled was because the leader or leaders of an organization
responsible for the distribution of drugs were arrested, while the New York
field division’s primary reason was because a member or members (not
necessarily a leader) of a large organization responsible for the distribution
of drugs were arrested. A DEA official stated that they plan to address these
inconsistencies in the third or fourth quarter of FY 2003.

Recommendation

We recommend the DEA:

4. Establish specific criteria to define what constitutes a disrupted and
   dismantled priority target organization.

Systems to Collect, Track, and Report Performance Data

       To determine whether the DEA had developed an effective system to
collect, track, and report performance data, we interviewed DEA officials and
reviewed PTARRS data and PTARRS training manuals. We determined that
the DEA had not developed a system to effectively track performance data
for five of its six performance indicators as shown in the following table.




                                     - 14 -
                                                                System
     Decision Unit           Performance Indicator
                                                               Developed
Domestic Enforcement   Number of priority target
                                                                  Yes
                       organizations disrupted/dismantled
                       Contribution to reduction in drug use
                                                                  No
                       and availability
International          Number of priority target
                                                                  No
Enforcement            organizations disrupted/dismantled
                       Contribution to reduction in drug use
                                                                  No
                       and availability
Diversion Control      Number of suppliers
                                                                  No
                       disrupted/dismantled
State and Local        Contribution to reduction in drug use
                                                                  No
Assistance             and availability

Number of Priority Target Organizations Disrupted/Dismantled
(Domestic Enforcement Decision Unit). From our interviews and
review of the PTARRS training manuals and system data, we
determined that the DEA formerly tracked its priority target
performance indicators and results for its domestic enforcement
operations manually through the use of a spreadsheet application
program. Because the manual tracking system was labor intensive
and time consuming, the DEA developed the PTARRS to replace the
manual process. We found that the PTARRS provides an effective
capability to track the progress made and resources expended against
priority target organizations.

Number of Priority Target Organizations Disrupted/Dismantled
(International Enforcement Decision Unit). The DEA tracked its
international priority target organizations through a manual
spreadsheet application program instead of the PTARRS. Because the
manual system is time consuming and labor intensive, the DEA plans
to incorporate features into PTARRS to enable tracking of the
international priority target organizations. According to a DEA official,
the DEA is awaiting funding to modify PTARRS to incorporate the
international priority target performance data. This expansion of
PTARRS has been delayed because PTARRS is accessible only through
the DEA’s primary data processing system called Firebird. Most DEA
international offices gained access to the Firebird system by March
2003; however, at that time Moscow, Beijing, Peshawar, and Lyon still
needed access to the Firebird system. The installation of the Firebird
system in these four remaining offices has been delayed because of
security and other issues. To minimize the time and labor involved
with tracking international priority target data manually, the DEA




                                - 15 -
       should begin using PTARRS to track international performance data as
       soon as the obstacles mentioned above are removed.

       Contribution to Reduction in Drug Use and Availability (all three
       decision units)and Number of Suppliers Disrupted/Dismantled
       (Diversion Control Decision Unit). The DEA tracked performance
       data for one of its two new performance indicators – suppliers
       disrupted and dismantled – using a manual spreadsheet application
       program. However, for the other new performance indicator on
       contributing to the reduction in drug use and availability, the DEA had
       not developed a methodology for measuring success. Without a
       methodology, we could not determine whether meaningful
       performance data would be available to effectively measure
       performance against this indicator. Moreover, the DEA had not
       developed a reporting system for either of these two new performance
       indicators. Without a reporting system, we could not determine
       whether any performance data accumulated would be reported in a
       meaningful way.

Recommendation

We recommend the DEA:

5. Establish a system or systems to collect, analyze, and report performance
   data related to the performance indicators for: a) suppliers disrupted and
   dismantled, b) contribution to reduction in drug use and availability, and
   c) international priority target organizations disrupted and dismantled.

Procedures to Verify Performance Data

      The DEA had not established procedures to verify the priority target
performance data for all its performance indicators. To verify the priority
target performance data, we obtained the PTARRS training manual and
reviewed the procedures for tracking investigative cases. In addition, we
had DEA field division personnel demonstrate the system controls, as well as
how they ensure the priority target information reported in PTARRS is
complete and accurate. We also interviewed DEA officials to discuss the
sources of information reported in support of its budgets and reviewed the
accreditation package12 that was used to evaluate the PTARRS. From the
accreditation documentation, we found that the DEA had evaluated the risks


12
   Accreditation is a formal declaration by a designated accrediting authority that an
information technology system is approved to operate in a particular security mode using a
prescribed set of safeguards.


                                          - 16 -
and controls in place within the system. Our review determined that the
PTARRS application was certified and accredited by the Information Security
Section of the DEA’s Office of Security Programs as having adequate controls
for reporting and tracking priority target organizations with certain minor
conditions that were to be resolved by September 12, 2002. Because the
contract for upgrading PTARRS had yet to be completed, the DEA was
granted two 6-month extensions through September 12, 2003, to complete
the action items in the accreditation package.

       We also found that the DEA's PTARRS application, its system controls
and cross checking methods with other systems, and the procedures
instituted by the DEA for case review were generally adequate to verify the
domestic priority target performance data. However, as previously
mentioned, PTARRS was not used to track performance data for the
international priority targets or for the two new performance indicators on
suppliers disrupted/dismantled and contribution to reduction in drug use and
availability. As a result, the DEA is unable to verify the accuracy and
reliability of the information recorded, reported, and used to evaluate its
performance for these three indicators. According to a DEA official, once the
two new FY 2002 performance indicators and the Office of International
Operations’ international priority target organizations are brought into the
PTARRS reporting system, procedures will be established to ensure the
performance results are valid. After we issued the draft report, the DEA
informed us that it would modify PTARRS to include all international priority
target organizations by the end of FY 2004.

Recommendation

We recommend the DEA:

6. Establish procedures and controls to verify the performance data reported
   for the performance indicators for: a) suppliers disrupted and
   dismantled, b) contribution to reduction in drug use and availability, and
   c) international priority target organizations disrupted and dismantled.

Accuracy of Performance Data

       As previously discussed, prior to the implementation of PTARRS the
DEA tracked priority target organization data using a manual spreadsheet
application. To examine the accuracy of the priority target performance data
reported for the five DEA field divisions, we determined that the field
divisions accounted for 248 of the 726 FY 2001 priority target organizations
listed in the DEA’s manual spreadsheet application. We then reviewed the
case files and physically verified that 128 of the 248 priority target


                                   - 17 -
organizations were priority targets managed by the field divisions included in
our review. For the remaining 120 priority targets managed by sub-offices
of the field divisions reviewed, we obtained a signed certification from the
respective sub-office official that the organizations were in fact priority
target organizations.

       To assess the accuracy of the disrupted and dismantled priority target
performance data reported for the five DEA field divisions, we first
determined that the field divisions accounted for 41 of the 100 FY 2001
disrupted or dismantled priority target organizations in the manual
spreadsheet application. We then discussed the respective priority target
organizations with the case agents or group supervisors to confirm whether
the priority target organizations were disrupted or dismantled, the outcome
of the priority target investigations, and the impact the priority target
organizations had on drug distribution in the United States. We also had the
case agents and group supervisors provide details from the case files of the
results of the investigations to include the number of individuals arrested
and convicted and the assets seized. Our review determined that the
performance data reported for 38 of the 41 FY 2001 disrupted and
dismantled priority target organizations listed in the manual spreadsheet
application was accurate. However, for the Los Angeles field division, the
DEA did not properly report data for 3 of the 28 disrupted and dismantled
priority target organizations (5 disrupted and 23 dismantled) reported.
Specifically:

   •   One case was reported as dismantled but we found that this target
       was never a priority target and was erroneously entered in PTARRS
       with an incorrect case number but a correct case name.

   •   Another case was reported as a disrupted Los Angeles field division
       priority target but actually was a New York field division linked case.
       The DEA’s records show the case was not a priority target in FY 2001,
       but was linked to a case that was a priority target organization.

   •   Another case was reported twice as disrupted. However, according to
       the DEA’s records one of these two cases had the wrong case number
       and name.

     The DEA discovered and corrected these three errors when it
reconciled the manual spreadsheet data and the PTARRS data in April 2002
when PTARRS was brought online. In addition, as previously discussed we
found that the PTARRS system controls and cross-checking methods were
adequate to verify the domestic priority target data. Therefore, we make no
recommendation regarding this issue.


                                     - 18 -
Goals for Priority Target Organizations and for Disruptions and
Dismantlements

       Because the DEA had not established specific criteria for identifying
priority target organizations and for determining whether the organizations
have been disrupted or dismantled, the performance goals established by
the DEA may not be useful. In addition, the DEA also had not established
reasonable goals for priority target organizations identified and priority
target organizations disrupted and dismantled. To determine if the DEA
established reasonable performance goals, we reviewed actual and planned
priority target performance data reported in the DEA’s budget requests for
FYs 2003 and 2004. As shown in the following table, we determined that the
DEA has not established reasonable goals for the number of priority target
organizations that it would identify each year or for the number of priority
target organizations that it would disrupt or dismantle each year.

               Priority Target Organizations        Priority Target Organizations
       Fiscal            Identified                    Disrupted or Dismantled
       Year       Planned           Actual            Planned           Actual
      2001          538               566                27               100
      2002          588               764                35               190
      200313        638               424                45               260
     Source: DEA Congressional Budget Requests for FY 2003 and FY 2004

       As shown in the preceding table, each year the DEA reported
disrupting and dismantling about four times or more organizations than it
had planned. As such, the DEA was significantly understating this goal. A
DEA Headquarters official stated that the goals were significantly
understated because the DEA wanted to be cautious when setting its goals
until the field divisions were reporting consistent data. The official said the
goals were later modified upward but were still tempered because of the
potential impact that standardized criteria for selecting priority targets and
for classifying priority targets as disrupted or dismantled could have on the
projected goals. According to the same official, the DEA was concerned that
restrictive standardized criteria could impact the goals downward.
Nevertheless, in order to credibly measure its success, the DEA needs to
develop reasonable goals on the number of priority target organizations that

13
   The actual numbers for FY 2003 are estimates based on the actual numbers as of
March 31, 2003. As of March 31, 2003, the DEA had identified 212 priority target
organizations for FY 2003. If this rate continues, we estimate the DEA will report 424
priority target organizations as identified in FY 2003. As of March 31, 2003, the DEA had
disrupted or dismantled 130 priority target organizations. If this rate continues, we
estimate the DEA will report 260 priority target organizations as disrupted or dismantled in
FY 2003.


                                           - 19 -
it expects to identify each year, as well as the number of priority target
organizations that it expects to disrupt or dismantle each year.

Recommendation

We recommend the DEA:

7. Establish goals consistent with a trend analysis of actual performance
   results.

Conclusion

      Although the DEA had developed a strategic goal and objectives in
concert with the Department’s strategic goals and objectives, it failed to
meet key aspects of GPRA and OMB Circular A-11. Specifically, we
determined that the DEA’s strategic goal and objectives were not adequate
to enable future measurements of success, and the DEA had not:

      •   reported performance results for all its performance indicators;

      •   developed specific criteria for the field divisions to designate
          organizations as priority target organizations;

      •   developed specific criteria for field divisions to report priority target
          organizations as being disrupted or dismantled;

      •   established an effective system to collect, analyze, and report
          performance data for all its performance indicators;

      •   established procedures and controls to verify the performance data
          for all its performance indicators;

      •   established procedures to ensure priority target performance data
          reported by the field divisions is correct before including the data in
          its budget; and

      •   developed reasonable goals for its performance measures.

      The DEA needs to effectively address these issues to ensure that its
reported performance results provide the Department, Congress, and the
public meaningful data to measure how well the DEA is accomplishing its
mission.




                                       - 20 -
    STATEMENT OF COMPLIANCE WITH LAWS AND REGULATIONS

      We audited the Drug Enforcement Administration’s (DEA)
implementation of the Government Performance and Results Act (GPRA) of
1993. The audit covered the period October 1, 2000, through May 28, 2003,
and included a review of selected activities and transactions. The audit was
conducted in accordance with generally accepted Government Auditing
Standards.

      In connection with the audit and as required by the standards, we
reviewed procedures, activities, and records to obtain reasonable assurance
about the DEA’s compliance with laws and regulations that, if not complied
with, we believe could have a material effect on program operations.
Compliance with laws and regulations is the responsibility of the DEA’s
management.

      Our audit included examining, on a test basis, evidence about laws and
regulations that related to the DEA’s implementation of the GPRA. The
specific laws and regulations for which we conducted tests were:

     •   Government Performance and Results Act of 1993
     •   Office of Management and Budget Circular A-11

      Except for instances of non-compliance identified in the Finding and
Recommendations section of this report, the DEA was in compliance with the
laws and regulations referred to above. With respect to those transactions
not tested, nothing came to our attention that caused us to believe that the
DEA was not in compliance with the referenced laws and regulations above.




                                   - 21 -
                                                                    Appendix 1

                 OBJECTIVES, SCOPE AND METHODOLOGY

      Our objectives were to evaluate whether the Drug Enforcement
Administration (DEA) had: 1) developed an adequate strategic goal and
objectives that were consistent with the Department’s strategic goals and
objectives, 2) established performance indicators for all the decision units
included in its budget requests, and 3) established an effective system of
controls to collect, analyze, and report data related to its performance
indicators. We conducted our audit in accordance with Government Auditing
Standards and included such tests as were considered necessary to
accomplish our objectives. Our audit concentrated on, but was not limited
to, the period October 1, 2000, through May 28, 2003.

      We performed audit work at the DEA Headquarters in Washington,
D.C. and at its field divisions in Atlanta, Chicago, Los Angeles, New Orleans,
and New York. At these locations, we determined if the:

      •   DEA had developed an adequate strategic goal and objectives. To
          perform this test, we obtained the DEA’s FY 2001-2006 Strategic
          Plan and proposed FY 2003-2008 Strategic Plan and the
          Department’s FY 2001-2006 Strategic Plan. We then compared the
          strategic goal and objectives in the DEA’s plan to the strategic goals
          and objectives in the Department’s plan to ensure the DEA’s goal
          and objectives were consistent with those of the Department. We
          also reviewed the DEA’s goal and objectives to determine if they
          were quantitative, directly measurable, or assessment-based as
          required by Office of Management and Budget Circular A-11 to
          allow for a future assessment of whether the goal and objectives
          were being achieved.

      •   DEA had developed performance indicators for each decision unit
          included in its budget requests. To perform this test, we obtained
          the DEA's FY 2003 and FY 2004 budget submissions. We then
          reviewed the budgets to determine if the DEA reported performance
          indicators for the decision units included in the budget requests and
          reported performance results for each performance indicator.

      •   DEA established specific criteria for the selection of priority targets.
          To complete this test, we interviewed the responsible DEA
          personnel for the 248 FY 2001 priority target organizations reported
          for the five field divisions we reviewed to determine what criteria
          they used to establish the organizations as priority targets. We also


                                      - 22 -
           interviewed DEA Headquarters officials to determine whether they
           had issued criteria for selecting priority targets.

       •   DEA established specific criteria to decide whether a priority target
           organization should be classified as disrupted or dismantled. To
           complete this test, we interviewed the responsible DEA personnel
           for the 41 FY 2001 priority target organizations reported as
           disrupted and dismantled for the five field divisions we reviewed to
           determine what criteria they used to classify the organizations as
           either disrupted or dismantled. We also interviewed DEA
           Headquarters officials to determine whether they had issued criteria
           for classifying priority target organizations as either disrupted or
           dismantled.

       •   DEA had developed an effective system to collect, track, and report
           performance data related to its performance indicators. To perform
           this test, we interviewed officials from the DEA and reviewed the
           PTARRS training manuals and the system data from the PTARRS
           and manual spreadsheet applications used to collect, track, and
           report performance data related to its performance indicators. We
           then requested that the DEA field division personnel log into the
           PTARRS application to demonstrate the system controls, as well as
           how they ensure the priority target information reported in PTARRS
           is complete and accurate.

       •   DEA had established procedures to verify the data related to its
           performance indicators. To perform this test, we reviewed the user
           guide and training manuals and reviewed the controls and
           procedures in place for tracking investigative cases in PTARRS. We
           then requested the DEA field division personnel log into the PTARRS
           application to demonstrate the system controls, as well as how they
           ensure the priority target information reported in PTARRS is
           complete and accurate. We also obtained the accreditation package
           that was used to evaluate the PTARRS to determine if the DEA had
           evaluated the risks and controls in place within the system.

       •   DEA accurately reported priority target performance data for
           FY 2001.14 To perform this test, we obtained the list of FY 2001
           priority target organizations entered into the DEA’s manual
           spreadsheet application. The DEA identified 726 FY 2001 priority

14
   Because agency budget requests are prepared well in advance of the fiscal year they
fund, the budgets contain actual performance results for the period two fiscal years prior to
the budget year. Consequently, an agency’s FY 2003 budget includes actual performance
results for FY 2001 and its FY 2004 budget contains actual performance results for FY 2002.


                                           - 23 -
    targets. From that list, we identified the 248 FY 2001 priority
    target organizations associated with five selected field divisions
    (Atlanta, Chicago, Los Angeles, New Orleans, and New York). We
    then either physically verified the priority target organizations to
    the case files (for priority target organization investigations
    managed by the field division visited) or requested that the
    respective field division sub-office certify the priority target
    organizations investigated as priority targets (for priority target
    organization investigations managed by the field division sub-
    offices) to determine the reliability and accuracy of the performance
    data reported in the PTARRS. In addition, we obtained the list of
    FY 2001 disrupted and dismantled priority target organizations
    reported in the manual spreadsheet application for the same five
    selected field divisions. The DEA identified 100 priority target
    organizations disrupted and dismantled in FY 2001. From that list,
    we identified 41 disrupted or dismantled priority target
    organizations in the five selected field divisions. We then
    interviewed the DEA personnel responsible for investigating those
    organizations to confirm whether those targets were disrupted or
    dismantled, and to determine the impact the targets had on the
    United States. We also had the DEA personnel provide details from
    the case files of the outcome of the investigations such as the
    number of individuals arrested and convicted and the assets seized.

•   DEA established reasonable priority target goals in its FY 2003 and
    FY 2004 congressional budget requests. To complete this test, we
    reviewed the actual and planned priority target performance data
    reported in the DEA’s budget requests. We then interviewed DEA
    personnel to discuss the bases for those goals to determine if the
    DEA’s performance goals were reasonable.




                               - 24 -
                                                                              Appendix 2

                                 SUMMARY OF
                           SPECIAL AGENT-IN-CHARGE
                           QUESTIONNAIRE RESULTS15


1.   How would you rate the use of priority target organizations as a source
     of measuring performance (Poor, Fair, Good, Excellent)? Explain your
     rating?

     Response 1: Good.

     Response 2: Good. The Drug Enforcement Administration’s (DEA)
     success involved using priority targeting in combination with wiretaps,
     the Special Operations Division (SOD), and information and cooperation
     with State and local police and multi-jurisdictional investigations.

     Response 3: Excellent. The DEA has successfully connected priority
     targeting with the use of wiretaps, the Special Operations Division
     (SOD), multi-jurisdictional investigations, and State and local programs.

     Response 4: Excellent. The Priority Target Resource and Reporting
     System (PTARRS) has enhanced the DEA’s systems of reporting
     performance and encourages the input from the various field divisions.

     Response 5: Good to Excellent. Agent man-hours were also critical to
     the measurement.

2.   Assuming that priority targets are the best way to measure the DEA’s
     performance, how can this system be enhanced to provide a better
     reflection of the DEA’s performance, while also allowing you the
     flexibility to deal with other issues that may arise in the office?

     Response 1: Standards or required elements should be developed for
     priority target organizations and every priority target organization in the
     respective field division should be evaluated against those standards or
     elements. The organizations could then be categorized based on how

15
   During the survey phase of the audit, we conducted site work at one field division and our
interview with the Special Agent-in-Charge (SAC) was limited to questions 1 and 2. During
the verification phase of the audit, we interviewed the SACs in four other field divisions
concerning those same two questions as well as additional questions 3 through 12. As a
result, there are five responses for questions 1 and 2, and four responses for questions 3
through 12.


                                           - 25 -
     they stack up against those standards. Organizations meeting the most
     or all the elements would be submitted as priority target organizations
     and would receive the greater case agent work load, while the
     remaining agents would continue to develop the cases that had not met
     all the required elements to qualify as a priority target. This would also
     provide the SACs the flexibility to work other assignments. The DEA
     should develop: 1) guidelines for the number of agents that should
     generally be assigned to a priority target, and 2) a goal of priority target
     organizations that each field division should disrupt and dismantle in a
     fiscal year based on location and staffing of the field division.

     Response 2: Dismantlements are not the only way to measure
     success. The PTARRS needs to reflect effort. Wiretaps may go on for a
     long time before sufficient information is obtained that results in arrests.
     Also, leads may be passed on to other offices or jurisdictions.

     Response 3: In order for the field division management to have the
     ability to see the "big picture" (manage resources and provide a better
     reflection of the DEA's performance), data fields need to be established
     in the PTARRS to identify drugs seized, wiretaps set-up, leads passed to
     other sub-offices or other field divisions that result in cases, number of
     arrests, resources (funding), and justification for the priority target
     (such as threat posed by organization, leadership of the organization,
     investigative activity to date, and anticipated investigative activity).

     Response 4: A better means of tracking man-hours on a given priority
     target organization will provide more flexibility to work other cases and
     offer assistance to other offices.

     Response 5: Additional resources would result in better performance.

3.   Does the use of priority target organizations as a source of measuring
     performance provide an accurate view of the DEA’s success at
     accomplishing its mission? Explain?

     Response 1: No, not completely. Some harder to measure results
     should also be counted as accomplishments. For example, if a local
     drug gang is put out of commission and driven out of a neighborhood,
     the relief and feelings of safety for the residents should be counted as a
     positive result. By eliminating a bad influence in a neighborhood,
     younger children have more opportunity to learn better values and see
     better adults as models to emulate. If children only see drug dealers
     driving big fancy cars, that is who they will imitate.




                                     - 26 -
     Response 2: Yes. That is the DEA’s focus and mission.

     Response 3: Yes. Priority targeting provides an accurate view of the
     DEA’s success because the field divisions have greater participation and
     everyone is a player. For example, the DEA’s use of the Class 1 system
     offered a very rigid definition of a Class 1 violator. Small offices and
     locations would never have a Class 1 case, which would result in the
     DEA having a less accurate measure of performance from all entities.
     The priority targeting system offers a much greater degree of
     participation, which in the end provides a more accurate picture of
     performance.

     Response 4: Yes. In order to show the impact of the results, priority
     targets should be the priority.

4.   Does the use of priority target organizations provide an effective means
     of communicating case linkages? Why or why not?

     Response 1: Yes. The DEA field divisions and other police forces now
     share information and work together to connect the dots of drug
     connections to other parts of the country and the world.

     Response 2: Yes. In concert with the Organized Crime Drug
     Enforcement Task Force (OCDETF) operations and the SOD, priority
     target organizations provide and encourage an effective case linkage
     system.

     Response 3: Yes. A lot of the information given to the SOD on priority
     target organizations has provided linkages to both Federal Bureau of
     Investigations (FBI) and United States Customs situations.

     Response 4: Yes. We are beginning to look at the case linkage. In
     addition, the Consolidated Priority Organization Target list, OCDETF, and
     non-OCDETF sources have assisted with case linkages.

5.   How has the use of priority targets as a performance measurement
     improved the interaction among the field offices as related to providing
     leads to cases?

     Response 1: It has forced the field divisions to share leads in order to
     determine how drug dealers are connected and how the drugs move
     from overseas to this country and then to various locations for ultimate
     sale. The field divisions are working better as a team. The SOD sends
     leads to field divisions and the field divisions work the leads and share


                                    - 27 -
     the information with other field divisions when the drug connections
     lead to the other division.

     Response 2: Priority targets coupled with the intelligence and
     resources of the SOD have forced the field divisions to focus and work
     together for the common cause of taking down the most significant drug
     trafficking organizations. For example, in the past, one field division
     may provide a lead on a priority target organization to another field
     division. The field division that received the priority target lead may
     just make note of that particular lead instead of looking at how that lead
     may be used to develop another priority target or aid in dismantling or
     disrupting the priority target organization from the field division that
     provided the lead.

     Response 3: The case linkage feature in the PTARRS has offered
     added value to the communication level between the field divisions.
     Also, there is an added bonus in that the PTARRS rejects cases when
     links are entered twice, which prompts the field divisions to interact with
     each other for information on the cases.

     Response 4: Priority targets have helped the existing relationship
     between the field divisions.

6.   Are priority target organizations selected in sub-offices that would not
     otherwise be selected as a priority target in the field division? If so,
     why?

     Response 1: Yes. Some cases have a great local impact, but are not
     priority targets. The DEA cannot ignore a bad situation merely because
     it does not have immediately identifiable international connections.
     Each city has its own unique problems. We cannot fail to fund local
     drug cases just because they are not OCDETF cases.

     Response 2: No. Priority target organizations in sub-offices have an
     essential role in meeting the DEA's mission. Major drug trafficking
     organizations are not always identified in the major metropolitan cities
     and disrupted or dismantled from the top of the organization and then
     working down to the distribution level. Many investigations begin in the
     rural DEA sub-offices where major drug trafficking organizations are
     infiltrated through the smaller street level dealers.

     Response 3: It would be hard to make the distinction simply because
     of the differences in locations. Each field division is allowed to seek the
     biggest organization in their respective area.


                                     - 28 -
     Response 4: The SAC provided no answer to this question.

7.   What areas of weaknesses do you see in the use of priority targets?

     Response 1: By focusing the DEA's assets on priority targets, there
     are less resources available for other cases, such as local targets.
     Money from special funds such as paying for evidence and information is
     now going to priority targets.

     Response 2: If the field division managers and Headquarters do not
     use seized drugs, wiretaps set-up, leads passed to other field divisons,
     and number of arrests in combination with priority target organizations
     dismantled and disrupted, then priority targets will not be an effective
     tool to manage resources and demonstrate the DEA's performance not
     only within the DEA, but also to Congress.

     Response 3: The perception of outside agencies such as the United
     States Attorney’s office, sheriff’s departments, and police departments
     relative to the understanding of priority targeting is that they will not
     get assistance from the DEA because of the focus on priority targets.

     Response 4: Because of the SOD funding factor, money should be
     maintained for non-priority cases. Also, the criteria for establishing
     priority target organizations should have been marketed better initially.

8.   Do resources, ratio of available case agents, the identification and arrest
     of drug traffickers, etc., have any effect or influence on your selection of
     priority targets? If so, how?

     Response 1: No.

     Response 2: No. We focus on the organization and the impact that
     organization has on the area. Once we identify a priority target, it is
     always a priority target regardless. The case may be removed from the
     priority target list at any time, but not because of any of the
     circumstances mentioned above.

     Response 3: Yes. Resources have an effect or influence on the
     selection of priority target organizations because a field division with 8
     agents and 10 task force officers (18 total) would require more man
     hours that would result in more resources and the ability to work more
     priority targets. Also, every enforcement element should have at least
     one priority target, as well as one on the shelf when the other one is


                                     - 29 -
     either disrupted or dismantled. In addition, the field division’s threat
     assessment would be the basis for selecting priority targets.

     Response 4: Yes. Resources should be considered when you manage
     priority target organizations as the number increases. You would like to
     know the status of the existing priority target organizations as you
     manage your case workload.

9.   Do you think that priority targeting, if established and reported
     consistently among field divisions, could be used as an effective tool to
     request and bring resources to the areas of most significant trafficking
     (such as priority targets)? How?

     Response 1: Yes. Once we identify the priority targets, then we can
     demonstrate where the resources are needed. If the number of priority
     target organizations is greater than our resources, then we can show
     the need for more resources.

     Response 2: Yes. If the DEA field divisions and Headquarters:
     1) clearly define what a priority target organization is, 2) develop
     general standardized criteria for selecting priority target organizations
     regardless of the area, and 3) consistently apply the definition and
     criteria, then the DEA can use this information to demonstrate and
     justify additional resources, especially in those areas of most significant
     trafficking. What we actually report to DEA Headquarters is: 1) the
     number of most significant priority target organizations that can be
     investigated based on the respective field divisions current available
     resources, and 2) the number (percentage) of additional priority target
     organizations that could be investigated if we had additional resources.
     We have an agreement with DEA Headquarters to report priority target
     organizations based on the aforementioned criteria. We cannot identify
     priority target organizations by just going through all our case files and
     categorizing them as either a non-priority target organization or a
     priority target organization. There are some priority target
     organizations that can be identified without having the available
     resources to work the cases (such as name of suspected drug trafficker
     and wire tap numbers). However, most priority target organizations are
     identified through case agents working and developing the cases until
     they can be classified and reported as a priority target organization.

     Response 3: Yes. Priority targeting could become an effective tool to
     request and bring resources if the DEA looked at how many priority
     target organizations were not worked because of the lack of resources



                                     - 30 -
    (agents) and effectively measure the aspect of manpower to priority
    targets.

    Response 4: Yes.

10. As illustrated in the table of statistics (See Appendix 3), why do you
    think certain field divisions show higher on-board staff, but such a low
    number and percentage of priority target organizations or vice versa?
    Are field divisions not reporting all the priority targets? Why?

    Response 1: The criteria to select priority target organizations is
    subjective. Each field division may have differing ideas on what
    constitutes a priority target. Perhaps field divisions are not reporting all
    the priority target organizations because of the subjectiveness of the
    criteria. Some field divisions may under report priority target
    organizations to show a higher success rate and some may over report
    priority target organizations to show a need for more resources or to
    look as if they are working harder.

    Response 2: Each field division has a different geographic drug
    connection (such as gateway for drugs entering and being distributed
    throughout the United States, and drug storage command centers), as
    well as a different drug threat. The field divisions are not reporting all
    their priority targets. However, based on the instructions provided by
    the DEA Headquarters (as discussed in the previous question), the field
    divisions are reporting all priority target organizations that can be
    investigated with the available resources.

    Response 3: The statistics illustrate where priority targeting was when
    the priority targeting concept first came about. The selection of priority
    target organizations was left to the discretion of the SAC. As such,
    every SAC selected their priority target organizations differently. There
    was no set criteria, no formula from headquarters. As the system has
    evolved, the selection process was revamped. All the field divisions are
    reporting their priority target organizations because the SACs are being
    evaluated based on the number of priority target organizations that are
    being disrupted and dismantled in their respective field division.

    Response 4: Initially, there was no established criteria for the priority
    targets. In some field divisions, sub-offices’ cases were reported as
    priority targets, while the top cases were reported as priority target
    organizations in the New York field division.




                                    - 31 -
11. Does your field division use or have other performance indicators other
    than those currently reported that would better measure performance
    against DEA’s overall mission?

    Response 1: No.

    Response 2: No. However, the DEA should look at other indicators
    that result from dismantled or disrupted priority target organizations
    (such as price of drugs, change in drug trafficking patterns, and sources
    of supply). The DEA should also take into account seizures, arrests,
    wiretaps set-up, impact on other areas of the country, and leads
    provided to sub-offices or other field divisions when evaluating DEA's
    overall performance. Furthermore, the DEA should report each field
    division's overall caseload for a fiscal year in addition to: 1) the number
    of most significant priority target organizations that could be
    investigated in a fiscal year based on the respective field divisions
    current available resources, and 2) the number or percentage of
    additional priority target organizations that could be worked if the field
    division had more resources. The reporting of the overall caseload
    should provide a more complete and accurate picture of DEA's
    performance, as well as demonstrate our needs. The field divisions
    should also have individual goals showing priority target organizations
    dismantled or disrupted, not just for the DEA overall. Using the threat
    assessment for each field division, goals could be set, not based on the
    number of priority target organizations disrupted or dismantled, but by
    type of organization dismantled or disrupted (such as chemical brokers
    and cocaine cartels).

    Response 3: No.

    Response 4: No. However the Field Management Plans identify what
    priorities are the focus within a division.

12. What better tools could the DEA use to show Congress how well you are
    performing that would result in more personnel on-board to deal with
    the increased drug trafficking, distribution, and use of drugs?

    Response 1: The SAC could not think of any better tools to show
    Congress how the DEA is performing, but believed there were some.

    Response 2: Reporting the number of priority target organizations
    dismantled or disrupted in a given year cannot provide the true picture
    of the DEA’s performance. Although the use of dismantled or disrupted
    priority target organizations is the key performance measure, the DEA


                                    - 32 -
must provide testimonial evidence to Congress with a package of
success stories, as well as the statistical data. The statistical data must
also provide a complete package of not only organizations dismantled or
disrupted, but also drugs seized, wiretaps set-up, number of arrests,
and leads passed to other sub-offices or other field divisions that results
in cases. The DEA must also do a better job of using the media to
inform the public of their work.

Response 3: If the DEA could come up with a way to track the number
of priority target organizations they could not work because of other
responsibilities. For example, if the Border Patrol does a drug pickup, a
DEA agent has to be called and the DEA agent is tied up with the
logistics of that particular case. Also, the FBI recently pulled out their
agents working within the DEA groups to focus more on terrorism.
However, there are not enough DEA agents to fill the void. Both these
areas limit the DEA’s ability to work more priority targets.

Response 4: Priority targeting is a good way to show Congress the
DEA’s performance. Other than inviting Congress members to different
field divisions, the priority targeting system has credibility with
Congress.




                                - 33 -
                                                                             Appendix 3

                       ON-BOARD FIELD DIVISION STAFF
                      LEVELS AS A PERCENT OF PRIORITY
                        TARGET ORGANIZATIONS (PTOs)


                                                        Percent of
                                             Average    On-board      Percent
                                  Percent   Total On-     Staff to    of PTOs
                            FY    of PTOs     board        Total       to On-
                          2001    to Total   Staff for  On-board       board
       Field Division     PTOs     PTOs     FY 200116      Staff        Staff
      Atlanta                  39     5.4%          302        5.2%      12.9%
      Boston                   24     3.3%          222        3.8%      10.8%
      Caribbean                24     3.3%          175        3.0%      13.7%
      Chicago                  23     3.2%          312        5.4%       7.4%
      Dallas                   16     2.2%          200        3.5%       8.0%
      Denver                   19     2.6%          170        2.9%      11.2%
      Detroit                  48     6.6%          270        4.7%      17.8%
      El Paso                  17     2.3%          159        2.8%      10.7%
      Houston                  87    12.0%          402        7.0%      21.6%
      Los Angeles              92    12.7%          430        7.4%      21.4%
      Miami                    64     8.8%          598       10.4%      10.7%
      Newark                    8     1.1%          161        2.8%       5.0%
      New Orleans              77    10.6%          243        4.2%      31.7%
      New York                 17     2.3%          545        9.4%       3.1%
      Philadelphia              7     1.0%          198        3.4%       3.5%
      Phoenix                  40     5.5%          206        3.6%      19.4%
      San Diego                 9     1.2%          260        4.5%       3.5%
      San Francisco            17     2.3%          233        4.0%       7.3%
      Seattle                  17     2.3%          196        3.4%       8.7%
      St. Louis                30     4.1%          213        3.7%      14.1%
      Washington, DC           51     7.0%          280        4.9%      18.2%
      Total                   726                  5775                  12.6%
      Source: OIG calculated percentages based on PTO and on-board data
                provided by DEA




16
  The average total on-board staff for FY 2001 was calculated by adding the beginning total
on-board staff as of October 1, 2000, to the ending total on-board staff as of September 30,
2001, and dividing the resulting sum by two. Total on-board staff includes all positions at
the applicable office.


                                          - 34 -
                                   Appendix 4

PRIORITY TARGET CRITERIA USED BY
   THE ATLANTA FIELD DIVISION




             - 35 -
                                   Appendix 5

PRIORITY TARGET CRITERIA USED BY
   THE CHICAGO FIELD DIVISION




             - 36 -
                                   Appendix 6

PRIORITY TARGET CRITERIA USED BY
 THE LOS ANGELES FIELD DIVISION
           Page 1 of 2




             - 37 -
PRIORITY TARGET CRITERIA USED BY
 THE LOS ANGELES FIELD DIVISION
           Page 2 of 2




             - 38 -
                                   Appendix 7

PRIORITY TARGET CRITERIA USED BY
 THE NEW ORLEANS FIELD DIVISION




             - 39 -
                                   Appendix 8

PRIORITY TARGET CRITERIA USED BY
  THE NEW YORK FIELD DIVISION




             - 40 -
                                                                               Appendix 9

               CIRCUMSTANCES OF FISCAL YEAR 2001
     DISRUPTED/DISMANTLED PRIORITY TARGET ORGANIZATIONS17

               PTO                             DESCRIPTION OF CIRCUMSTANCES OF
NUMBER                   LOCATION
             STATUS                                   DISRUPTED/DISMANTLED
                                         Two individuals were arrested that were part of a
                                         large organization. Both pleaded guilty to the
                                         manufacturing and distribution of
                         Atlanta Field
     1      Disrupted                    methamphetamine and cocaine and received 20
                           Division
                                         year prison sentences. In addition, 13 pounds of
                                         methamphetamine, 2 kilograms of cocaine, and
                                         more than $800,000 in cash were seized.
                                         A family organization was arrested that were
                         Atlanta Field
     2      Disrupted                    responsible for the distribution of crack cocaine. In
                           Division
                                         total, 35 individuals were arrested and convicted.
                                         Two leaders of an organization were arrested.
                                         Individuals were responsible for murders and the
                           Chicago
                                         distribution of crack cocaine. In total, 79
     3     Dismantled       Field
                                         individuals were arrested and 15 were convicted.
                           Division
                                         In addition, 4 cars, 4.5 kilograms of crack cocaine,
                                         $20,000 in cash, and 56 firearms were seized.
                                         The leaders and couriers of an organization
                                         responsible for the distribution of
                         Los Angeles
                                         methamphetamine were arrested. In total, 7
     4     Dismantled       Field
                                         individuals were arrested and convicted. In
                           Division
                                         addition, 7 pounds of methamphetamine, $80,000
                                         in cash, 8 vehicles, and guns were seized.
                                         The leaders and suppliers of an organization
                                         responsible for the distribution of
                         Los Angeles     methamphetamine were arrested. In total, 19
     5     Dismantled       Field        individuals were arrested and 18 were convicted.
                           Division      In addition, 45 pounds of methamphetamine, 300
                                         pounds of marijuana, and $450,000 in cash were
                                         seized.
                                         The leaders and couriers of an organization
                                         responsible for the distribution of cocaine were
                         Los Angeles
                                         arrested. In total, 38 individuals were arrested. In
     6     Dismantled       Field
                                         addition, 1,298 kilograms of cocaine, 110 pounds of
                           Division
                                         marijuana, $4.1 million in cash, and 5 weapons
                                         were seized.




17
    In the FY 2003 budget, the DEA reported 41 priority target organizations as disrupted or
dismantled for FY 2001. However, as discussed in the accuracy of performance data section
of this report, the DEA incorrectly reported three organizations as priority target
organizations disrupted or dismantled for the Los Angeles field division. As such, this
appendix relates to the 38 priority target organizations that the DEA correctly reported as
disrupted or dismantled for FY 2001.


                                           - 41 -
                                The leaders and couriers of an organization
                                responsible for the distribution of pseudophedrine
                  Los Angeles   were arrested. In total, 17 individuals were
7    Dismantled      Field      arrested and 14 were convicted. In addition, 3
                    Division    million pseudophedrine pills, 484 pounds of
                                methamphetamine, and $230,000 in cash were
                                seized.
                                An international organization's leaders and couriers
                                responsible for the distribution of
                  Los Angeles   methamphetamine were arrested. In total, 100
8    Dismantled      Field      individuals were arrested and 90 were convicted.
                    Division    In addition, methamphetamine and
                                pseudophedrine, $2 million in cash, and 2
                                laboratories were seized.
                                The leaders and couriers of an organization involved
                                in paying off chemical companies for the gas used
                  Los Angeles
                                in the manufacturing of methamphetamine were
9    Dismantled      Field
                                arrested. In total, 34 individuals were arrested and
                    Division
                                31 were convicted. In addition, 5 vehicles and 16
                                laboratories were seized.
                                The leaders of an international organization
                  Los Angeles   responsible for transporting opium were arrested.
10   Disrupted       Field      In total, 5 individuals were arrested. In addition, 3
                    Division    kilograms of opium, $5,000 in cash, and 4 vehicles
                                were seized.
                                An international organization's leaders and suppliers
                                responsible for distributing cocaine and ecstasy
                  Los Angeles
                                were arrested. In total, 22 individuals were
11   Dismantled      Field
                                arrested and 17 were convicted. In addition, 800
                    Division
                                pounds of ecstasy and a home valued at $1 million
                                were seized.
                                The leaders and couriers of multiple international
                                organizations responsible for distributing cocaine
                  Los Angeles
                                and heroin were arrested. In total, 21 individuals
12   Dismantled      Field
                                were arrested and 11 were convicted. In addition,
                    Division
                                700 pounds of marijuana, 85 kilograms of cocaine,
                                vehicles, and $500,000 in cash, were seized.
                                The international leaders and suppliers of an
                                organization responsible for the distribution of
                  Los Angeles
                                cocaine were arrested. In total, 45 individuals were
13   Dismantled      Field
                                arrested and 39 were convicted. In addition, 632
                    Division
                                pounds of marijuana and 240 kilograms of cocaine
                                were seized.
                                The leaders and couriers of an international
                                organization responsible for the distribution of
                  Los Angeles
                                cocaine were arrested. In total, 54 individuals were
14   Dismantled      Field
                                arrested and the majority were convicted. In
                    Division
                                addition, 632 pounds of marijuana, 350 kilograms
                                of cocaine, and $15 million in cash were seized.




                                         - 42 -
                                The international leaders and suppliers of a large
                                organization responsible for the distribution of
                  Los Angeles   methamphetamine were arrested. In total, 12
15   Dismantled      Field      individuals were arrested by Federal authorities and
                    Division    a significant number of individuals were arrested by
                                State and local authorities. In addition, 16
                                laboratories and 75 weapons were seized.
                                The leaders of an international organization and
                                suppliers responsible for the distribution of heroin
                  Los Angeles
                                were arrested. In total, 235 individuals were
16   Dismantled      Field
                                arrested and convicted. In addition, 60 pounds of
                    Division
                                heroin, $200,000 in cash, and an orchid farm
                                valued at $1 million were seized.
                                An international organization's leaders and suppliers
                                of Columbian cocaine were arrested. In total, 11
                  Los Angeles
                                individuals were arrested and convicted. In
17   Dismantled      Field
                                addition, 80 pounds of marijuana, 29 kilograms of
                    Division
                                cocaine, $400,000 in cash, and vehicles were
                                seized.
                                The leaders and couriers of an organization
                  Los Angeles
                                responsible for the distribution of cocaine and
18   Disrupted       Field
                                marijuana were arrested. In total, 3 individuals
                    Division
                                were arrested. In addition, vehicles were seized.
                  Los Angeles   An international organization's leader responsible
19   Dismantled      Field      for distributing ecstasy was arrested and convicted.
                    Division    In addition, 5,000 ecstasy pills were seized.
                                An international organization's leaders and couriers
                                responsible for the distribution of
                  Los Angeles
                                methamphetamine were arrested. In total, 34
20   Dismantled      Field
                                individuals were arrested. In addition, 8 tons of
                    Division
                                pseudophedrine, $2 million in cash, and 2
                                laboratories were seized.
                                A local organization's leaders responsible for
                  Los Angeles   distributing methamphetamine and cocaine were
21   Disrupted       Field      arrested. In total, 4 individuals were arrested and
                    Division    convicted. In addition, 10 pounds of
                                methamphetamine was seized.
                                An international organization's leaders and suppliers
                  Los Angeles   responsible for distributing cocaine and ecstasy
22   Dismantled      Field      were arrested. In total, 23 individuals were
                    Division    arrested and 18 were convicted. In addition, 2,200
                                pounds of ecstasy were seized.
                                The international leaders and suppliers of a large
                                organization responsible for the distribution of
                  Los Angeles   methamphetamine were arrested. In total, 8
23   Dismantled      Field      individuals were arrested by Federal authorities and
                    Division    a significant number of individuals were arrested by
                                State and local authorities. In addition, 2
                                laboratories and 5 weapons were seized.




                                         - 43 -
                                The leaders and suppliers of an organization
                  Los Angeles   responsible for the distribution of cocaine were
24   Dismantled      Field      arrested. In total, 4 individuals were arrested and
                    Division    convicted. In addition, 80 kilograms of cocaine was
                                seized.
                                The leader of an organization responsible for the
                                distribution of pseudophedrine was arrested. In lieu
                  Los Angeles
                                of prosecution, the company president surrendered
25   Dismantled      Field
                                his license to distribute pseudophedrine. In
                    Division
                                addition, 2,010 cases of pseudophedrine were
                                seized.
                                The suppliers of an organization responsible for the
                                distribution of methamphetamine were arrested. In
                                total, 5 individuals were arrested and 4 were
                  Los Angeles
                                convicted. In addition, 7 pounds of
26   Dismantled      Field
                                methamphetamine, 3 kilograms of cocaine, 21
                    Division
                                cases of pseudophedrine, 1 methamphetamine
                                laboratory, $72,526 in cash, and 4 vehicles were
                                seized.
                                The leaders of an organization responsible for the
                  Los Angeles   distribution of heroin were arrested. In total, 20
27   Dismantled      Field      individuals were arrested and 17 had been
                    Division    convicted. In addition, 5 pounds of heroin, $7,500
                                in cash, and 2 vehicles were seized
                                The significant leaders of the organization, as well
                                as the street dealers, responsible for the
                                distribution of crystal methamphetamine were
                  Los Angeles
                                arrested. In total, 31 individuals were indicted and
28   Dismantled      Field
                                30 have been arrested and convicted. In addition,
                    Division
                                3 pounds of crystal methamphetamine, 200 ecstasy
                                pills, 5 ounces of marijuana, $244,000 in cash, 7
                                vehicles, and 9 weapons were seized.
                  New Orleans   The partner of a large marijuana distribution
29   Dismantled      Field      organization was arrested. In addition, about 463
                    Division    kilograms of marijuana was seized.
                                The leader and couriers of organization responsible
                  New Orleans
                                for the distribution of cocaine was arrested and
30   Dismantled      Field
                                received life imprisonment. In total, approximately
                    Division
                                100 individuals were arrested.
                                Members of a large organization responsible for the
                                distribution of large amounts of cocaine and
                  New Orleans   methamphetamine in several areas within a given
31   Disrupted       Field      state were arrested. In total, 15 individuals were
                    Division    arrested. In addition, 3 pounds of
                                methamphetamine, 5 kilograms of cocaine, and
                                $300,000 in cash and real property were seized.
                                The leader of an organization responsible for the
                  New Orleans   distribution of hydrochloride and marijuana was
32   Dismantled      Field      arrested and received a total of 105 years
                    Division    imprisonment. In total, 9 individuals were arrested.
                                In addition, 6 vehicles were seized.




                                         - 44 -
                                The leader of an organization responsible for the
                                distribution of a significant amount of heroin within
                  New Orleans
                                a given area was arrested. In total, 24 individuals
33   Disrupted       Field
                                were arrested and indicted. In addition, 2
                    Division
                                kilograms of heroin and $100,000 in cash were
                                seized.
                                The members of an organization responsible for the
                                distribution of heroin, cocaine, and ecstasy were
                   New York
                                arrested. In total, 17 individuals were arrested and
34   Dismantled      Field
                                convicted. In addition, 790 kilograms of heroin,
                    Division
                                491 kilograms of cocaine, 15,000 ecstasy pills, and
                                about $666,600 in cash were seized.
                                The members of a large organization responsible
                                smuggling and distributing large quantities of
                   New York     cocaine into the United States were arrested. In
35   Dismantled      Field      total, 51 individuals were arrested. In addition,
                    Division    $1.6 million in cash and assets, more than 200
                                kilograms of cocaine, and 3 tons of marijuana were
                                seized.
                                The main target of an organization responsible for
                   New York     breaking heroin down and distributing it to smaller
36   Dismantled      Field      dealers on the street was arrested, along with his
                    Division    brother. In total, about 15 to 20 individuals were
                                arrested.
                                The members of an organization responsible for the
                   New York     distribution of cocaine were arrested as the result of
37   Disrupted       Field      the arrest of a foreign national. In total, 5
                    Division    individuals were arrested. In addition, 401
                                kilograms of cocaine was seized.
                                Two members of a large organization responsible
                   New York
                                for the distribution of marijuana were arrested at a
38   Disrupted       Field
                                border crossing. In addition, $1.8 million in cash
                    Division
                                and 30 to 40 pounds of marijuana were seized.




                                         - 45 -
                                    Appendix 10

THE DRUG ENFORCEMENT ADMINISTRATION’S
  RESPONSE TO THE DRAFT AUDIT REPORT




                - 46 -
- 47 -
- 48 -
- 49 -
                                                                 Appendix 11

 OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION ANALYSIS
   AND SUMMARY OF ACTIONS NEEDED TO CLOSE THE REPORT

Recommendation No.

1.   Resolved. In the Drug Enforcement Administration’s (DEA)
     September 23, 2003 Action Plan submitted with its response to the draft
     report, the DEA stated that it concurred with this recommendation and
     that its new draft FY 2003-2008 Strategic Plan includes a general long-
     term goal and four specific strategic goals with two and five-year
     quantitative, time-specific objectives. The DEA believes that the revised
     goal and objectives will meet the requirements of Office of Management
     and Budget (OMB) Circular A-11. The DEA stated that it would provide
     the revised Strategic Plan to the Office of the Inspector General (OIG)
     upon final approval. The DEA plans to complete this action by October
     2003.

     We can close this recommendation when we receive a copy of the DEA’s
     revised Strategic Plan that shows the DEA has established goals and
     objectives that are quantitative, directly measurable, or assessment
     based as required by OMB Circular A-11.

2.   Resolved. In its September 23, 2003 Action Plan, the DEA stated that
     it concurred with this recommendation and that its FY 2004 Budget
     Request to Congress provides performance information for the following
     four strategic focus areas, which are defined in the DEA’s draft FY 2003-
     2008 Strategic Plan: International Enforcement, Domestic Enforcement,
     State and Local Assistance, and Diversion Control. The DEA stated that
     it has specific performance indicators for each of the four strategic focus
     areas, but performance results are not available for the DEA’s general
     long-term goal of contributing to the DOJ’s goal to reduce the
     availability of drugs in America. The DEA stated that it plans to
     complete development of an impact assessment methodology in order
     to demonstrate results on its efforts to reduce drug availability. The
     DEA plans to complete this action by December 2003.

     We can close this recommendation when we receive documentation that
     shows the DEA completed the above stated action and that its latest
     budget request includes performance results for all performance
     indicators included in the budget request.




                                     - 50 -
3.   Resolved. In its September 23, 2003 Action Plan, the DEA stated that
     it concurred with this recommendation and that it has prepared
     definitions and specific criteria for what constitutes a priority target
     organization. The DEA stated that the definitions and criteria are under
     review and will be included in a new Priority Target Handbook, which will
     be provided to the OIG upon final approval. The DEA plans to complete
     these actions by November 2003.

     We can close this recommendation when we receive documentation that
     shows the DEA has established criteria for determining what constitutes
     a priority target organization.

4.   Resolved. In its September 23, 2003 Action Plan, the DEA stated that
     it concurred with this recommendation and that it has prepared
     definitions and specific criteria for what constitutes a
     disruption/dismantlement. The DEA stated that the definitions and
     criteria are being compiled into a new Priority Target Handbook, which
     will be provided to the OIG upon final approval. The DEA plans to
     complete these actions by November 2003.

     We can close this recommendation when we receive documentation that
     shows the DEA has established criteria for determining what constitutes
     a disrupted and dismantled priority target organization.

5.   Resolved. In its September 23, 2003 Action Plan, the DEA stated that
     it concurred with this recommendation and that: 1) its Office of
     Diversion Control has defined disruption and dismantlement and
     established a methodology to collect, analyze, and report performance
     data, 2) it is considering proposals concerning the assessment of the
     DEA’s impact on drug availability, and 3) it has modified a contract to
     incorporate all international priority target organizations into the Priority
     Target and Resource Reporting System (PTARRS). Further, the DEA
     stated that: 1) its Office of Diversion Control is evaluating the
     consolidation of several data systems into one relational interface that
     will capture all disruption and dismantlement information, and it will
     complete the action by December 2004; 2) it plans to complete the
     development of an impact assessment methodology by December 2004
     in order to demonstrate results on reduction of drug availability, and
     3) it plans to modify the PTARRS by December 2003 to include all
     international priority target organizations.

     We can close this recommendation when we receive documentation that
     shows the DEA completed the actions stated above and that the newly
     established or enhanced systems are adequate to collect, analyze, and


                                      - 51 -
     report performance data related to the performance indicators for: 1)
     suppliers disrupted and dismantled, 2) contribution to reduction in drug
     use and availability, and 3) international priority target organizations
     disrupted and dismantled.

6.   Resolved. In its September 23, 2003 Action Plan, the DEA stated that
     it concurred with this recommendation and that its Office of Diversion
     Control uses established procedures and controls to verify the
     performance data reported for disruptions and dismantlements.
     According to the DEA’s response, the established procedures include:
     1) reviewing discrepancies, 2) resolving questions in the field,
     3) evaluating inconsistencies prior to data entry, 4) verifying and
     recording disposition data, and 5) assigning the appropriate
     administrative codes to each registration. The DEA also stated that it is
     considering proposals concerning the assessment of the DEA’s impact on
     drug availability; has modified a contract to incorporate all international
     priority target organizations into the PTARRS; and plans to:

           •   Include existing data verification procedures in any effort to
               consolidate existing DEA data systems by December 2003.
           •   Include data verification procedures in the resulting impact
               assessment system by December 2004.
           •   Modify the PTARRS to include all international priority target
               organizations by December 2003.

     We can close this recommendation when we receive documentation of
     the written procedures and controls to verify the performance data for
     the performance indicators for: 1) suppliers disrupted and dismantled,
     2) contribution to reduction in drug use and availability, and
     3) international priority target organizations disrupted and dismantled.

7.   Resolved. In its September 23, 2003 Action Plan, the DEA stated that
     it concurred with this recommendation and that it has established a
     quarterly review process for performance data that entails comparing
     actual performance data to established annual targets. The DEA stated
     that it would establish a methodology to estimate projected
     performance based on actual data for each performance indicator
     identified in the DEA’s four strategic focus areas. The DEA plans to
     complete this action by December 2004.

     We can close this recommendation when we receive documentation that
     shows the DEA completed the action stated above and that the DEA has
     established goals consistent with historical performance results.



                                      - 52 -
